U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

December 18, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Bates v. United States, No. 20-535
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 20,
2020, and placed on the Court’s docket on October 22, 2020. The response of the United States
is now due, after one extension, on December 23, 2020. We respectfully request, under Rule
30.4 of the Rules of this Court, a further extension of time to and including January 22, 2021,
within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0535
BATES, DREW S.
USA

DAVID A. O'NEIL
DEBEVOISE & PLIMPTON LLP
801 PENNSYLVANIA AVENUE N.W.
WASHINGTON, DC 20004
202-383-8000
DAONEIL@DEBEVOISE.COM

